No. ______
In the

Supreme Court of the United States
__________________
AMERANTH, INC.,
v.

Petitioner,

DOMINO’S PIZZA, LLC, DOMINO’S PIZZA, INC.,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ROBERT F. RUYAK
RUYAKCHERIAN, LLP
1901 L Street, N.W.
Suite 700
Washington, DC 20036
(202) 838-1560
robertr@ruyakcherian.com

JERROLD J. GANZFRIED
Counsel of Record
GANZFRIED LAW
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, DC 20015
(202) 486-2004
JJG@ganzfriedlaw.com

Counsel for Petitioner

June 3, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Rule 16(d), Fed. R. Civ. P., states that a pretrial
order “controls the course of the action unless the court
modifies it.” Rule 56(f) requires a court to “giv[e] notice
and a reasonable time to respond” before granting
summary judgment “on grounds not raised by a party.”
In this patent case, the district court’s pretrial order
limited the plaintiff patentholder to asserting only five
claims that respondents infringed. Respondents moved
for summary judgment on only the five claims asserted;
their motion sought no relief and offered no evidence on
any other patent claim. The district court granted
summary judgment on the five asserted claims, and on
nine other patent claims that respondents’ summary
judgment motion did not present. In conflict with
decisions of the majority of other Circuits on the
primacy of pretrial orders and the requirements of
adequate notice prior to entry of summary judgment,
the Federal Circuit affirmed. The question presented
is:
1. Does the sua sponte judicial resolution on summary
judgment of issues expressly excluded by pretrial
order, and on which the moving party submitted no
evidence to meet its burden, deprive petitioner of
valuable property rights in violation of the Due
Process Clause and the Federal Rules of Civil
Procedure? Alternatively, should the case be
remanded to the Federal Circuit in light of this
Court’s recent holding on the party presentment
rule in United States v. Sineneng-Smith, 206 L. Ed.
2d 866 (2020)?

ii
PARTIES TO THE PROCEEDING
All parties to the proceeding are named in the
caption.
CORPORATE DISCLOSURE STATEMENT
Petitioner Ameranth, Inc. certifies that it is the real
party in interest and that there are no parent
corporations and no publicly held companies that own
10% or more of the stock of Ameranth, Inc.
LIST OF RELATED PROCEEDINGS
Ameranth, Inc. v. Live Nation Ent., Inc., Case No.
3:12-cv-1648-DMS (WVG) (S.D. Cal., filed June 29,
2012); Ameranth, Inc. v. Papa John’s USA, Inc., Case
No. 3:12-cv-729 DMS (WVG) (S.D. Cal., filed Mar. 27,
2012); Ameranth, Inc. v. Open Table, Inc., Case No.
3:12-cv-731 DMS (WVG) (S S.D. Cal., filed Mar. 27,
2012); Ameranth, Inc. v. O-Web Techs. Ltd., Case No.
3:12-cv-732 DMS (WVG) (S.D. Cal., filed Mar. 27,
2012); Ameranth, Inc. v. GrubHub, Inc., Case No.
3:12-cv-739 DMS (WVG) (S.D. Cal., filed Mar. 27,
2012); Ameranth, Inc. v. Agilysys, Inc., Case No.
3:12-cv-858 H (MDD) (S.D. Cal., filed Apr. 6, 2012);
Ameranth, Inc. v. Hyatt Hotels Corp., Case No.
3:12-cv-1627 DMS (WVG) (S.D. Cal., filed June 29,
2012); Ameranth, Inc v. Starwood Hotels and Resorts
Worldwide, Inc., Case No. 3:12-cv-1629 DMS (WVG)
(S.D. Cal., filed June 29, 2012); Ameranth, Inc. v. Best
Western International, Inc., Case No. 3:12-cv-1630 DMS
(WVG) (S.D. Cal., filed June 29, 2012); Ameranth, Inc.
v. Marriott Internat’l, Inc., Case No. 3:12-cv-1631 DMS
(WVG) (S.D. Cal., filed June 29, 2012); Ameranth, Inc.
v. Hotel Tonight, Inc., Case No. 3:12-cv-1633 DMS

iii
(WVG) (S.D. Cal., filed June 29, 2012); Ameranth, Inc.
v. Hotels.com, LP, Case No. 3:12-cv-1634 DMS (WVG)
(S.D. Cal., filed June 29, 2012); Ameranth, Inc. v.
Hilton Resorts Corp., Case No. 3:12-cv-1636 DMS
(WVG) (S.D. Cal., filed July 2, 2012); Ameranth, Inc. v.
Kayak Software Corp., Case No. 3:12-cv-1640 DMS
(WVG) (S.D. Cal., filed June 29, 2012); Ameranth, Inc.
v. Mobo Systems, Inc., Case No. 3:12-cv-1642 DMS
(WVG) (S.D. Cal., filed June 29, 2012); Ameranth, Inc.
v. Orbitz, LLC, Case No. 3:12-cv-1644 DMS (WVG)
(S.D. Cal., filed June 29, 2012); Ameranth, Inc. v.
Stubhub, Inc., Case No. 3:12-cv-1646 DMS (WVG) (S.D.
Cal., filed June 29, 2012); Ameranth, Inc. v.
Ticketmaster, LLC, Case No. 3:12-cv-1648 DMS (WVG)
(S.D. Cal., filed June 29, 2012); Ameranth, Inc. v.
Travelocity.com, LP, Case No. 3:12-cv-1649 DMS
(WVG) (S.D. Cal., filed June 29, 2012); Ameranth, Inc.
v. Usablenet, Inc., Case No. 3:12-cv-1650 DMS (WVG)
(S.D. Cal., filed June 29, 2012); Ameranth, Inc. v.
Fandango, Inc., Case No. 3:12-cv-1651 DMS (WVG)
(S.D. Cal., filed June 29, 2012); Ameranth, Inc. v.
Hotwire, Inc., Case No. 3:12-cv-1653 MMA (BGS) (S.D.
Cal., filedJuly 2, 2012); Ameranth, Inc. v. Expedia, Inc.,
Case No. 3:12-cv-1654 CAB (RBB) (S.D. Cal., filed June
29, 2012); Ameranth, Inc. v. Oracle Corp., Case No.
3:12-cv-1655 DMS (WVG) (S.D. Cal., filed June 29,
2012); Ameranth, Inc. v. ATX Innovation, Inc., Case No.
3:12-cv-1656 JLS DMS (NLS) (S.D. Cal., filed June 29,
2012); Ameranth, Inc. v. Ticketbiscuit, LLC, Case No.
3:13-cv-352- AJB (KSC) (S.D. Cal., filed Feb. 13, 2013);
Ameranth, Inc. v. Starbucks Corp., Case No.
3:13-cv-1072 MMA (BGS) (S.D. Cal., filed May 6, 2013);
Ameranth Inc. v. Splick-It, Inc., Case No.
3:17-cv1093-DMS (WVG) (S.D. Cal., filed May 26,

iv
2017); In re: Ameranth Litig., Case No. 3:11-cv-1810
DMS (WVG) (S.D. Cal.).

v
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
LIST OF DIRECTLY RELATED PROCEEDINGS . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . ix
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL, STATUTORY AND
REGULATORY PROVISIONS INVOLVED . . . . . . . 2
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 8
A. The district court sua sponte granted
summary judgment on patent claims that
had been expressly excluded by pretrial
orders, that respondents did not address in
their motion, and on which neither party
presented evidence . . . . . . . . . . . . . . . . . . . . . 8
B. The Federal Circuit affirmed the invalidation
of non-asserted claims that were in neither
the joint pre-trial order nor respondents’
motion for summary judgment . . . . . . . . . . . 11
REASONS TO GRANT THE PETITION . . . . . . . . 13

vi
A. Granting summary judgment on issues that
had been expressly excluded from
consideration by pretrial order conflicts with
decisions of nine other Circuits and
denies the non-moving party core due process
rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
1. Invalidation of patent claims excluded
from assertion by pretrial orders is
contrary to Rules 16 and 56, conflicts with
decisions of a majority of federal courts of
appeals, and violates the patent owner’s
rights to fair notice and due process . . . . 17
2. Judicial invalidation of claims that have
not been presented by the parties for
consideration and resolution poses
pressing practical risks that warrant this
Court’s review. . . . . . . . . . . . . . . . . . . . . . 25
B. This Court should grant review to assure
that a frequently-employed judicial
streamlining device does not result in
summary judgment invalidating patent
claims absent clear and convincing evidence
presented by the moving party to overcome
the presumption of eligibility, and absent a
meaningful opportunity for the patent owner
to contest that evidence. . . . . . . . . . . . . . . . . 27

vii
C. Because commonly-used litigation shortcuts
put at risk the protections embodied in the
Due Process Clause and the Federal Rules of
Civil Procedure, the issue in this case has
broad application in patent disputes and
many other litigation contexts . . . . . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the
Federal Circuit
(November 1, 2019). . . . . . . . . . . . App. 1
Appendix B Order Granting Defendants Domino’s
Pizza, LLC and Domino’s Pizza, Inc.’s
Motion for Summary Judgment of
Unpatentability in the United States
District Court Southern District of
California
(September 25, 2018) . . . . . . . . . App. 21
Appendix C Joint Pre-Trial Order in the United
States District Court Southern
District of California
(July 27, 2018). . . . . . . . . . . . . . . App. 40
Exhibit 1: Joint Statement of the
Case . . . . . . . . . . . . . . . . . . . . App. 44
Exhibit 2: Causes of Action to be
Tried. . . . . . . . . . . . . . . . . . . . App. 46
Exhibit 11: Statement of
Stipulated Facts . . . . . . . . . . App. 55

viii
Appendix D Order (1) Resolving Parties’ Joint
Motion for Discovery Dispute,
(2) Resolving Parties’ Joint Motion
Regarding Service of Amended
Infringement Contentions and (3) ReSetting Dates in the United States
District Court Southern District of
California
(October 10, 2013) . . . . . . . . . . . . App. 57
Appendix E Order Denying Petition for Panel
Rehearing and Rehearing En Banc in
the United States Court of Appeals for
the Federal Circuit
(January 6, 2020) . . . . . . . . . . . . App. 67

ix
TABLE OF AUTHORITIES
CASES
Aatrix Software, Inc. v. Green Shades
Software, Inc.,
890 F.3d 1354 (Fed. Cir. 2018) . . . . . . . . . . . . . . 27
Advanced Video Techs. LLC v. HTC Corp. et al.,
879 F.3d 1314 (Fed. Cir. 2018) . . . . . . . . . . . . . . 19
Amdocs (Isr.) Ltd. v. Openet Telecom, Inc.,
841 F.3d 1288 (Fed. Cir. 2016) . . . . . . . . . . . . . . 27
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242 (1986). . . . . . . . . . . . . . . . . . . . . . . 29
Arce v. Douglas,
793 F.3d 968 (9th Cir. 2015). . . . . . . . . . . . . . . . 23
Armstrong v. Manzo,
380 U.S. 545 (1965). . . . . . . . . . . . . . . . . . . . . . . . 6
Athena Diagnostics, Inc. v. Mayo Collaborative
Servs., LLC, 927 F.3d 1333 (Fed. Cir. 2019) . . . 28
Bank of Nova Scotia v. United States,
487 U.S. 250 (1988). . . . . . . . . . . . . . . . . . . . 19, 20
Bendet v. Sandoz Pharms. Corp.,
308 F.3d 907 (8th Cir. 2002). . . . . . . . . . . . . . . . 34
Buckingham v. United States,
998 F.2d 735 (9th Cir. 1993). . . . . . . . . . . . . . . . 24
Castro v. United States,
540 U.S. 375 (2003). . . . . . . . . . . . . . . . . . . . . . . 26

x
Celotex Corp. v. Catrett,
477 U.S. 317 (1986). . . . . . . . . . . . . . . . . . . . . . . 24
Commil USA, LLC v. Cisco Sys.,
191 L. Ed. 2d 883 (2015) . . . . . . . . . . . . . . . . . . . 29
Corning Glass Works v. Sumitomo Elec.
U.S.A., Inc.,
868 F.2d 1251 (Fed. Cir. 1989) . . . . . . . . . . . . . . 30
DP Aviation v. Smiths Indus. Aerospace &
Def. Sys., 268 F.3d 829 (9th Cir. 2001) . . . . . . . 18
eBay Inc. v. MercExchange, L.L.C.,
547 U.S. 388 (2006). . . . . . . . . . . . . . . . . . . . . . . 19
Elvis Presley Enters. v. Capece,
141 F.3d 188 (5th Cir. 1998). . . . . . . . . . . . . . . . 17
Foster Poultry Farms, Inc. v. SunTrust Bank,
377 Fed. App’x 665 (9th Cir. 2010). . . . . . . . . . . 18
Fuentes v. Shevin,
407 U.S. 67 (1972). . . . . . . . . . . . . . . . . . . . . . . . 16
Gilsmann v. AT&T Techs.,
827 F.2d 262 (8th Cir. 1987). . . . . . . . . . . . . . . . 19
Gorlikowski v. Tolbert,
52 F.3d 1439 (7th Cir. 1995). . . . . . . . . . . . . . . . 19
Graver Tank & Mfg. Co. v. Linde Air
Prods. Co., 339 U.S. 605 (1950) . . . . . . . . . . . . . 30
Greenlaw v. United States,
554 U.S. 237 (2008). . . . . . . . . . . . . . . . . . . . . . . 25

xi
In re Control Data Corp. Sec. Litig.,
933 F.2d 616 (8th Cir. 1991). . . . . . . . . . . . . . . . 19
Intellectual Ventures I LLC v. Symantec Corp.,
838 F.3d 1307 (Fed. Cir. 2016) . . . . . . . . . . . . . . 27
Interval Licensing LLC v. AOL, Inc.,
896 F.3d 1335 (Fed. Cir. 2018) . . . . . . . . . . . 27, 28
Joint Anti-Fascist Refugee Comm. v. McGrath,
341 U.S. 123 (1951). . . . . . . . . . . . . . . . . 16, 20, 21
Kara Tech. Inc. v. Stamps.com Inc.,
582 F.3d 1341 (Fed. Cir. 2009) . . . . . . . . . . . . . . 30
Lankford v. Idaho,
500 U.S. 110 (1991). . . . . . . . . . . . . . . . . . . . . . . 20
Logan v. Zimmerman Brush Co.,
455 U.S. 422 (1982). . . . . . . . . . . . . . . . . . . . . . . . 6
Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574 (1986). . . . . . . . . . . . . . . . . . . . . . . 29
Microsoft v. i4i Ltd P’ship,
564 U.S. 91 (2011). . . . . . . . . . . . . . . . . . . . . . . . 32
Miller v. Safeco Title Ins. Co.,
758 F.2d 364 (9th Cir. 1985). . . . . . . . . . . . . . . . 18
Moore v. Sylvania Elec. Prods., Inc.,
454 F.2d 81 (3d Cir. 1972) . . . . . . . . . . . . . . . . . 19
Mullane v. Cent. Hanover Bank & Trust Co.,
339 U.S. 306 (1950). . . . . . . . . . . . . . . . . . . . . . . 16
Nike, Inc. v. Adidas AG,
955 F.3d 45 (Fed. Cir. 2020) . . . . . . . . . . . . . 13, 14

xii
Osram Sylvania, Inc. v. Am. Induction Techs., Inc.,
701 F.3d 698 (Fed. Cir. 2012) . . . . . . . . . . . . 24, 29
Pernell v. Southall Realty,
416 U.S. 363 (1974). . . . . . . . . . . . . . . . . . . . . . . 29
Phoenix Canada Oil Co. v. Texaco, Inc.,
842 F.2d 1466 (3d Cir. 1988) . . . . . . . . . . . . . . . 19
Portland Retail Druggists Ass’n v. Kaiser
Found. Health Plan,
662 F.2d 641 (9th Cir. 1981). . . . . . . . . . . . . . . . 24
Prati v. United States,
603 F.3d 1301 (Fed. Cir. 2010) . . . . . . . . . . . . . . 34
Ramirez Pomales v. Becton Dickinson & Co., S.A.,
839 F.2d 1 (1st Cir. 1988) . . . . . . . . . . . . . . . . . . 19
Randolph County v. Alabama Power Co.,
784 F.2d 1067 (11th Cir. 1986). . . . . . . . . . . . . . 19
Reeves v. Sanderson Plumbing Prods.,
530 U.S. 133 (2000). . . . . . . . . . . . . . . . . . . . . . . 29
Rio Props. v. Armstrong Hirsch Jackoway
Tyerman & Wertheimer,
254 Fed. App’x 600 (9th Cir. 2007). . . . . . . . . . . 18
Rockwell Int’l Corp. v. United States,
549 U.S. 457 (2007). . . . . . . . . . . . . . . . . . . . . . . 17
S. Cal. Retail Clerks Union and Food Employers
Joint Pension Fund v. Bjorklund,
728 F.2d 1262 (9th Cir. 1984). . . . . . . . . . . . . . . 18

xiii
Scot Lad Foods v. Ayar,
No. 96-1036, 1997 U.S. App. LEXIS 8560
(6th Cir. 1997) . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Smart Sys. Innovations, LLC v. Chi. Transit Auth.,
873 F.3d 1364 (Fed. Cir. 2017) . . . . . . . . . . . . . . 27
TDN Money Sys. v. Everi Payments, Inc.,
796 Fed. App’x 329 (9th Cir. 2019). . . . . . . . . . . 18
Trujillo v. Uniroyal Corp.,
608 F.2d 815 (10th Cir. 1979). . . . . . . . . . . . . . . 19
Tucker v. United States,
498 Fed. App’x 303 (4th Cir. 2012). . . . . . . . . . . 19
United States v. Grayson,
879 F.2d 620 (9th Cir. 1989). . . . . . . . . . . . . . . . 23
United States v. Sineneng-Smith,
206 L. Ed. 2d 866 (2020) . . . . . . . . . . . . . . . passim
Whiting v. Krassner,
391 F.3d 540 (3d Cir. 2004) . . . . . . . . . . . . . . . . 34
CONSTITUTION AND STATUTES
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . 2
5 U.S.C. § 554(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . 13
5 U.S.C. § 554(c)(1). . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 1257(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
35 U.S.C. § 101 . . . . . . . . . . . . . . . . . . . . . . . . . passim
RULES
Fed. R. Civ. P. 16(c)(2)(A) . . . . . . . . . . . . . . . . . . . . 17

xiv
Fed. R. Civ. P. 16(d) . . . . . . . . . . . . . . . . . . . . 2, 13, 17
Fed. R. Civ. P. 16(e) . . . . . . . . . . . . . . . . . . . . . . . 2, 13
Fed. R. Civ. P. 56(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Fed. R. Civ. P. 56(c) . . . . . . . . . . . . . . . . . . . . . . . . . 29
Fed. R. Civ. P 56(f) . . . . . . . . . . . . . . . . . . . . . 3, 13, 22

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Ameranth, Inc. respectfully petitions for
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Federal Circuit
in this case.
OPINIONS BELOW
The decision of the Federal Circuit (App. infra at 120) is reported at 792 Fed. App’x 780 (Fed. Cir. 2019).
The decision of the district court granting summary
judgment (App. infra at 21-39) is not reported.
JURISDICTION
The judgment of the Federal Circuit issued on
November 1, 2019 (App. infra at 20). Ameranth’s
timely petition for rehearing was denied on January 6,
2020. (App. infra at 67-69). A petition for a writ of
certiorari would have been due on April 4, 2020. On
March 19, 2020, this Court’s Miscellaneous Order
extended the time to file petitions for writs of certiorari
to 150 days after the denial of a timely petition for
rehearing in light of COVID-19 public health concerns.
The Miscellaneous Order extended the time to file this
petition to and including June 4, 2020. This Court’s
jurisdiction rests on 28 U.S.C. § 1257(a).

2
CONSTITUTIONAL, STATUTORY, AND
REGULATORY PROVISIONS INVOLVED
United States Constitution, Amendment Five
No person shall be held to answer for a
capital, or otherwise infamous crime, unless on
a presentment or indictment of a Grand Jury,
except in cases arising in the land or naval
forces, or in the Militia, when in actual service
in time of War or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
United States Patent Law, 35 U.S.C. § 101:
Inventions Patentable
Whoever invents or discovers any new and
useful process, machine, manufacture, or
composition of matter, or any new and useful
improvement thereof, may obtain a patent
therefor, subject to the conditions and
requirements of this title.
Federal Rules of Civil Procedure, Rule 16(d) and (e)
Rule 16. Pretrial Conferences; Scheduling;
Management
(d) PRETRIAL ORDERS. After any conference
under this rule, the court should issue an order

3
reciting the action taken. This order controls the
course of the action unless the court modifies it.
(e)

FINAL PRETRIAL CONFERENCE AND
ORDERS. The court may hold a final pretrial
conference to formulate a trial plan, including a
plan to facilitate the admission of evidence. The
conference must be held as close to the start of
trial as is reasonable, and must be attended by
at least one attorney who will conduct the trial
for each party and by any unrepresented party.
The court may modify the order issued after a
final pretrial conference only to prevent
manifest injustice.
Federal Rules of Civil Procedure, Rule 56 (a) and
(f)
(a) MOTION FOR SUMMARY JUDGMENT OR PARTIAL
SUMMARY JUDGMENT. A party may move for
summary judgment, identifying each claim or
defense—or the part of each claim or
defense—on which summary judgment is
sought. The court shall grant summary
judgment if the movant shows that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of
law. The court should state on the record the
reasons for granting or denying the motion.
(f) JUDGEMENT INDEPENDENT OF THE MOTION.
After giving notice and a reasonable time to
respond, the court may: (1) grant summary
judgment for a nonmovant; (2) grant the motion
on grounds not raised by a party; or (3) consider

4
summary judgment on its own after identifying
for the parties material facts that may not be
genuinely in dispute.
INTRODUCTION
Something is profoundly wrong when a court rules
on matters that – at the court’s explicit direction –
were not contested by the litigants; matters on which
the party seeking summary judgment presented no
evidence or legal argument; and on which the opponent
therefore had no reason or fair opportunity to respond.
The judicial system and the constitutional protection of
due process do not work that way.
Yet that is precisely what happened in this case.
The district court – having limited the patentholder
plaintiff to asserting only five patent claims under a
duly issued patent – declared as patent ineligible
multiple other claims that were not presented for
decision; that the alleged infringer did not mention,
proffer evidence or present argument about in its
motion for summary judgment; and that the
patentholder lacked notice were even before the court
as well as lacking anything to which it could respond.
In conflict with nine Circuits that have held that
pretrial orders supersede and control, the Federal
Circuit affirmed. It did so even though there was no
dispute in the appellate briefing or in the repeated
statements by both parties at oral argument that these
additional claims were never part of the pretrial order
or the summary judgment motion and were not
presented for decision. When procedural and property
rights become so ephemeral, this Court’s review is
needed.

5
Certiorari would be warranted even if the issue
were limited to this very common practice in patent
cases. When a patentholder alleges infringement by
asserting multiple patent claims, each one under the
law a separate invention, courts routinely choose in the
early stages of the case to restrict the patentee to a
smaller, limited number of claims. The few claims
isolated for initial consideration may or may not be
representative of the remaining claims. Thus, the
conclusions reached on only the limited sampling of
claims may or may not be applicable to – much less
dispositive of – the remaining claims. Before the entire
case is resolved it is therefore essential for the parties
to have a fair opportunity to (1) address the critical
additional issue of the relationship – if any – between
the limited selected questions and other aspects of the
case and (2) litigate any remaining issues or claims. In
omitting that necessary step in this case, the district
court invalidated claims far beyond the five to which,
as the court itself directed, the parties were restricted.
And although all parties expressly confirmed to the
court of appeals that the pretrial order had excluded
these claims, and that respondents’ summary judgment
motion sought no relief on the non-asserted claims, the
Federal Circuit’s affirmance invalidated claims that the
parties had not presented for decision.
This case is an ideal vehicle for review because the
errors were not mere technicalities with scant practical
impact on the outcome. They profoundly affected the
result: respondents obtained summary judgment
invalidating multiple patent claims on which they
offered no evidence or argument. Absent any showing
by respondents that they were entitled to relief on

6
claims not presented in their motion, the district court
and the Federal Circuit lacked any evidentiary record
on which to base summary judgment. Respondents
submitted no statement of undisputed facts on the nonasserted patent claims. And they offered no evidence at
all on those claims, much less the clear and convincing
evidence that should have been required to overcome
the presumption of patent validity. This is therefore a
case in which the correct application of the Rules of
Civil Procedure and the Constitutional protection of
due process compel a different result.
The procedural deficiencies and constitutional
concerns in this case have broad practical
ramifications. Consider the consequences of a regime in
which a party can obtain summary judgment without
ever presenting evidence or argument; in which,
conversely, a party can summarily be deprived of
property without notice, and without an opportunity to
be heard at all, much less “at a meaningful time and in
a meaningful manner.” Logan v. Zimmerman Brush
Co., 455 U.S. 422, 437 (1982) (quoting Armstrong v.
Manzo, 380 U.S. 545, 552 (1965)). That is not a
hypothetical. It happened in this case.
Or consider a case in which a plaintiff alleges
breach of contract as well as violations of federal
securities, antitrust and environmental law, and the
Racketeer Influenced and Corrupt Organizations Act
(“RICO”). Could a court limit discovery to only the
RICO allegations and then, in deciding a summary
judgment motion targeting only the RICO claim,
resolve all the other claims (perhaps dismissing all
claims or perhaps holding the defendant liable for all)?

7
Without notice to the parties that the other claims were
in play? Without giving the parties the opportunity to
present evidence or argument on the other claims?
Without giving the parties any opportunity to address
whether the grounds on which the RICO claim is
attacked apply to the other alleged bases for liability?
The practical ramifications run deeper and wider. A
“small-sampling approach” or a “limited-issue
approach” has become commonplace for structuring
discovery, motions practice, and trial sequencing in
many types of cases. Class actions, mass tort and
product liability cases, and Multidistrict Litigation
(“MDL”) proceedings are among the numerous
litigation contexts that would be turned upside down if
motions limited to specific defined issues could –
without notice and without any evidentiary record –
lead to broad rulings on other matters. Following this
Court’s recent holding on the party presentment rule in
United States v. Sineneng-Smith, 206 L. Ed. 2d 866
(2020), there is a pressing need for this Court to
instruct the lower courts on how they can fairly employ
litigation shortcuts in ways that do not violate
substantive and procedural rights.

8
STATEMENT OF THE CASE
A. The district court sua sponte granted
summary judgment on patent claims that
had been expressly excluded by pretrial
orders, that respondents did not address in
their motion, and on which neither party
presented evidence.
Petitioner Ameranth brought this case against two
Domino’s-related entities for infringement of U.S.
Patent No. 8,146,077 (the “’077 patent”). This case was
one of several separate patent infringement lawsuits
Ameranth filed against different defendants, all of
which were consolidated for pretrial proceedings. C.A.
App. 337-367.
The ’077 patent claims an information management
and real-time synchronous communications system
invented by Keith McNally for configuring and
transmitting hospitality menus, reservations, and
other applications that use equipment with
nonstandard graphical formats, display sizes and/or
applications. Ameranth initially asserted thirteen
claims under the ’077 patent against Domino’s. C.A.
App. 298.
Early in the proceedings, by pretrial order dated
October 10, 2013, the court required Ameranth to limit
its asserted claims to five for purposes of discovery.
App. infra at 63. Ameranth did as directed. Its
Amended Disclosure of Asserted Claims and
Infringement Contentions asserted only five claims and
reserved “the right to assert additional and/or different
claims in the future by Court Order . . ..” C.A. App.

9
2196. The five claims asserted against Domino’s were
1, 6, 9, 13 and 17. And in response Domino’s also
limited its invalidity contentions and expert report
solely to these five asserted claims.
These same five asserted claims were also the only
claims at issue in a second pretrial order, a joint
pretrial order agreed upon and filed by the parties on
July 27, 2018. App. infra at 40-43. A month later – and
although the time for filing such motions had expired
– the court permitted respondents to join in a summary
judgment motion addressing patent ineligibility
previously filed by Pizza Hut, a defendant in a related
case. Pizza Hut’s summary judgment motion sought to
invalidate four of the same five claims Ameranth
asserted against Domino’s. So Domino’s relied on Pizza
Hut’s written submission and supplemented only on
the one claim (Claim 9) that was unique to Domino’s.1
The summary judgment motion presented evidence
and argument only on the asserted claims and no
others. Domino’s submissions did not mention any
other claim, nor did it contend that the asserted claims
were “representative” of any others. Petitioner
Ameranth responded with evidence only on the five
claims targeted in the summary judgment motion,

1

After filing its motion for summary judgment, Pizza Hut settled
with Ameranth. Domino’s later requested and received court
approval to substitute itself into the summary judgment motion
filed by Pizza Hut. The only difference between the claims asserted
against Pizza Hut and Domino’s was that Claim 8 was asserted
against Pizza Hut and Claim 9 against Domino’s. The other four
claims (1, 6, 13, and 17) had been asserted against both. C.A. App.
10228-10229.

10
reminding the court that no other claims “are
challenged in the MSJ” and that the non-asserted
claims “are not subject to the pending MSJ.”2 C.A. App.
10258-10259.
The district court’s summary judgment ruling
invalidated not only the five claims presented for
decision, but also nine additional claims that were
never the subject of respondents’ motion. The parties
proffered no evidence on any these additional claims,
nor were they contested in briefing or argument. In
sum, as to the claims of the ’077 patent:

2

Under the heading “CLAIMS 2-5, 7,10-12, 14-16 and 18 Are
Patent Eligible,” Ameranth stated that “None of these claims are
challenged in the MSJ. These claims include additional unique
technology, such as POS importation, multiple hospitality
application integration, and ‘communications systemic
relationship’ interactivity. Consequently, they are not subject to
the pending MSJ and have additional functionality and elements
that render them non-conventional and patent-eligible.” C.A. App.
10258-10259. In the district court proceedings, Domino’s did not
contest Ameranth’s enumeration of the non-asserted claims that
were “not subject to” the summary judgment motion. Nor did
Domino’s submit evidence or argument on the validity of the nonasserted claims.

11
Claims Asserte d by 1, 3, 6-9, 11-18
Ameranth at Early Stages
of the Case
Claims Litigated in 1, 6, 9, 13, and 17
Compliance with Pretrial
Orders dated July 27, 2018
and October 10, 2018
Limiting Claims
Claims Addressed in
Summary Judgment
Motions

1, 6, 9, 13, and 17

Claims Invalidated by
District Court

1, 4-9, 11, 13-18

B. The Federal Circuit affirmed the
invalidation of non-asserted claims that
were in neither the joint pre-trial order nor
respondents’ motion for summary
judgment.
The briefs filed in the Federal Circuit focused on the
lack of notice and even lack of Article III case-andcontroversy jurisdiction over the non-asserted claims.
Oral argument was dominated by questions from the
bench and clarification by counsel on the threshold
point: that Domino’s summary judgment motion
presented and challenged only the five asserted claims.
Oral Argument, Ameranth, Inc. v. Domino’s Pizza, LLC,
(No. 2019-1141), http://oralarguments.cafc.uscourts.gov/
default.aspx?fl=2019-1141.mp3.

12
The Federal Circuit affirmed the finding of patent
invalidity as to all claims except (on jurisdictional
grounds) claims 4 and 5.3 Despite the district court’s
explicit pretrial order limiting the number of claims,
Ameranth’s compliance with that limitation, and both
parties’ express confirmation at oral argument that
respondents’ summary judgment motion presented
evidence only on the five asserted claims, the Federal
Circuit upheld the ruling of patent ineligibility on
additional claims. Citing a submission by Ameranth
early in the case—long before the district court limited
the number of claims and long before the summary
judgment motion addressing only the five permitted
claims was filed—the Federal Circuit stated that “there
was no indication that Ameranth altered its position
that Domino’s Ordering System infringes claims 7-8,
11, 14-16 and 18.” App. infra at 7. On that basis, the
Federal Circuit concluded that the patentholder had
both notice and the opportunity to defend the eligibility
of claims that the pretrial order had excluded and that
Domino’s summary judgment motion did not even
mention. Having thus resolved the issue of notice, the
Federal Circuit did not address the substantive merits
whether the record supported entry of summary
judgment on the non-asserted claims; whether factual
disputes precluded summary judgment; whether
Domino’s met its burden of showing its entitlement to
relief on issues where clear and convincing evidence is
3

The Federal Circuit concluded that because Ameranth had never
accused Domino’s of infringing claims 4 and 5, there was no case
or controversy as to those claims. The court therefore lacked
jurisdiction to determine the patent eligibility of claims 4 and 5.
App. infra at 9-10.

13
required to overcome the presumption of patent
validity.
REASONS TO GRANT THE PETITION
In its incorrect judgment in this case, the court of
appeals exposed multiple procedural and substantive
rifts with far-ranging ramifications and immense
practical impact. This Court’s review is fully
warranted. At a minimum, certiorari should be granted
and the case remanded for the Federal Circuit to
consider in light of this Court’s recent decision in
United States v. Sineneng-Smith, 206 L. Ed. 2d 866
(2020).
Basic procedural rules and foundational principles
of due process require that a party be given notice and
a meaningful opportunity to be heard before its rights
are adjudicated. That did not happen here. The Federal
Circuit decision is flatly contrary to the normal rule of
party presentment and to the express language of
Rules 16(d)-(e) and 56(f), Fed. R. Civ. P. It fashioned a
“notice” standard that conflicts with rules the Federal
Circuit itself employs in other, but similarly applicable,
patent contexts. E.g., Nike, Inc. v. Adidas AG, 955 F.3d
45, 51-54 (Fed. Cir. 2020) (appeal from the Patent Trial
and Appeals Board) (“[T]he notice provisions of the
APA and our case law require that . . . [p]ersons
entitled to notice of a[] hearing shall be timely
informed of . . . the matters of fact and law asserted,”
and “all interested parties” “shall [be] give[n]
opportunity for . . . the submission and consideration of
facts [and] arguments[.]”) (quoting 5 U.S.C.
§§ 554(b)(3), 554(c)(1)). Because the requirement of fair
notice is inherent in the constitutional protection of due

14
process, the court of appeals should have applied a
standard compatible with Nike – or at least articulated
a rationale for providing less due process in judicial
proceedings than in agency proceedings. By ignoring
the constitutional underpinning of Nike’s statutory
holding, the Federal Circuit has created a conflict and
granted license to district courts to employ casemanagement devices that deprive parties of their right
to be heard on dispositive issues. Since these casemanagement devices are routinely employed in a wide
variety of cases, the impact of this decision extends
well beyond the patent context.
On the substantive side of the ledger, this case adds
to the growing confusion about patent eligibility under
35 U.S.C. § 101. Even if the ultimate resolution of core
eligibility questions must await new legislation and
implementation by the United States Patent and
Trademark Office (“USPTO”), this case exemplifies the
ways federal courts use Section 101 as a wrecking ball
to demolish large swaths of patents, reshape
industries, and deprive generations of innovative
technology of patent protection. When an alleged
infringer can get summary judgment invalidating as
ineligible patent claims its motion has not challenged
and on which it presented no evidence, something is
wrong. When a patentholder can be deprived of
valuable patent property rights without notice that the
patent claims were even being considered by the court
and without a meaningful opportunity to present
evidence or argument, something is wrong. And
something is also wrong when an alleged infringer can
obtain summary judgment, overcoming the
presumption of patent validity and defeating—without

15
evidence and without a trial—the invention’s novelty
and patent eligibility. These procedural flaws in the
ways federal courts adjudicate Section 101 claims is
something the Court can address and cure. It should.
And this case is the right vehicle.
A. Granting summary judgment on issues that
had been expressly excluded from
consideration by pretrial order conflicts
with decisions of nine other Circuits and
denies the non-moving party core due
process rights.
It is, of course, common practice for courts to
streamline cases for management purposes and
administrative efficiency. But when court-ordered
shortcuts impede the fair and orderly administration of
justice by denying patentees their well-established due
process right to defend the patentability of each patent
claim, this Court’s review is warranted. Once a court
decides the questions posed by only a limited sampling
of the entire case (or only a portion of the entire
patent), what is necessary to satisfy due process
requirements and applicable legal standards before
additional claims are resolved against the non-moving
party (or patentholder)?
Only by adhering to procedural rules and standards
that are the foundation of an appropriate adjudicative
process can this Court assure that substantive
principles of law will be protected, that plaintiffs will
have a full and fair opportunity to present their cases,
and that defendants will have a full and fair
opportunity to present their defenses. And only by
providing these essential procedural protections can

16
this Court ensure that no parties will be subject to sua
sponte rulings on issues and claims to which, at the
trial judge’s direction and order, zero evidence was
submitted.
Notice is a fundamental right inherent in judicial
dispute resolution. “For more than a century the
central meaning of procedural due process has been
clear: Parties whose rights are to be affected are
entitled to be heard; and in order that they may enjoy
that right they must first be notified. It is equally
fundamental that the right to notice and an
opportunity to be heard must be granted at a
meaningful time and in a meaningful manner.” Fuentes
v. Shevin, 407 U.S. 67, 80 (1972) (internal marks
omitted). And “[a]n elementary and fundamental
requirement of due process in any proceeding . . . is
notice reasonably calculated, . . . [to] afford [interested
parties] an opportunity to present their objections.”
Mullane v. Cent. Hanover Bank & Trust Co., 339 U.S.
306, 314 (1950). “[W]ithout notice, without disclosure
of any reasons justifying [a decision affecting the rights
of Parties], without opportunity to meet the
undisclosed evidence or suspicion on which [said
decision] may have been based, and without
opportunity to [object affirmatively,] . . . the mere sayso of [the decisionmaker] . . . is so devoid of
fundamental fairness as to offend the Due Process
Clause of the Fifth Amendment.” Joint Anti-Fascist
Refugee Comm. v. McGrath, 341 U.S. 123, 161 (1951)
(Frankfurter, J., concurring).
Notice is not (and cannot be), as the Federal Circuit
concluded here, satisfied merely by the fact that an

17
issue was mentioned sometime earlier in the case. App.
infra at 10-12. Due process and the Rules of Civil
Procedure require more.
1. Invalidation of patent claims excluded
from assertion by pretrial orders is
contrary to Rules 16 and 56, conflicts
with decisions of a majority of federal
courts of appeals, and violates the
patent owner’s rights to fair notice and
due process.
Federal Rule of Civil Procedure 16 authorizes
district courts to govern disputes by issuing pretrial
orders, and specifically to formulate and simplify the
issues in controversy. Fed. R. Civ. P. 16(c)(2)(A). Unless
modified by the court, pretrial orders control the course
of the action and supersede all prior pleadings. Fed. R.
Civ. P. 16(d); Rockwell Int’l Corp. v. United States, 549
U.S. 457, 474 (2007). This binding effect is particularly
strong where, as here, a joint pretrial order is agreed
upon and signed by both parties. Elvis Presley Enters.
v. Capece, 141 F.3d 188, 206 (5th Cir. 1998); see also
Tucker v. United States, 498 Fed. App’x 303, 307-308
(4th Cir. 2012) (affirmed district court prohibiting
evidence at trial on matters not included in the joint
pretrial order).
The Ninth Circuit (which the Federal Circuit was
bound to follow on this appeal from the Southern
District of California) has spoken directly to this point:
“[T]he pretrial order, which under Federal Rule of Civil
Procedure 16(d) ‘controls the course of the action unless
the court modifies it,’ and which may not be modified
after a final pretrial conference except ‘to prevent

18
manifest justice[.]’” Foster Poultry Farms, Inc. v.
SunTrust Bank, 377 Fed. App’x 665, 670 (9th Cir.
2010). “We have consistently held that issues not
preserved in the pretrial order have been eliminated
from the action.” Rio Props. v. Armstrong Hirsch
Jackoway Tyerman & Wertheimer, 254 Fed. App’x 600,
601 (9th Cir. 2007) (quoting S. Cal. Retail Clerks Union
and Food Employers Joint Pension Fund v. Bjorklund,
728 F.2d 1262, 1264 (9th Cir. 1984)). “The existence of
references to [an] issue in the record of the case
compiled before the pretrial orders is irrelevant. The
very purpose of the pretrial order is to narrow the
scope of the suit to those issues that are actually
disputed and, thus, to eliminate other would-be issues
that appear in other portions of the record of the case.”
Bjorklund, 728 F.2d at 1264. And “[a] primary purpose
of pretrial orders is to prevent unfair surprise by
providing ‘fair notice’ and ‘a fair opportunity to present
evidence refuting’ the opposing party’s theories of
liability or non-liability.” TDN Money Sys. v. Everi
Payments, Inc., 796 Fed. App’x 329 (9th Cir. 2019)
(citing Miller v. Safeco Title Ins. Co., 758 F.2d 364, 468
(9th Cir. 1985); DP Aviation v. Smiths Indus. Aerospace
& Def. Sys., 268 F.3d 829, 842-44 (9th Cir. 2001)).
Could anything be more counterproductive to the goal
of simplifying the judicial process than a ruling that
encourages – and effectively requires – parties to keep
litigating issues long after they were excised from the
case (or held in abeyance for disposition after frontburner issues are resolved)?
In affirming the invalidation of patent claims
beyond those permitted by the pretrial orders, the
Federal Circuit decision conflicts not only with the

19
Ninth Circuit but also with at least eight other
Circuits.4 But there is no separate, different procedural
standard for patent cases. “[A]ll [] Rules of Civil
Procedure . . . appl[y] in patent cases just as fully as it
applies in all other federal civil actions.” Advanced
Video Techs. LLC v. HTC Corp. et al., 879 F.3d 1314,
1319-20 (Fed. Cir. 2018) (O’Malley, J., concurring)
(rejecting the district court’s attempt to develop a rule
regarding the right to injunctive relief “unique to
patent disputes”) (citing eBay Inc. v. MercExchange,
L.L.C., 547 U.S. 388, 393-94 (2006)). See also Bank of

4

See also Ramirez Pomales v. Becton Dickinson & Co., S.A., 839
F.2d 1, 6 (1st Cir. 1988) (affirming the district court’s decision to
limit the scope of the case to the one specified in the pretrial
order); Phoenix Canada Oil Co. v. Texaco, Inc., 842 F.2d 1466, 1476
(3d Cir. 1988) (pretrial orders bind the parties; affirming district
court rejection of claim for damages not in the pretrial order)
(citing Trujillo v. Uniroyal Corp., 608 F.2d 815, 817 (10th Cir.
1979) and Moore v. Sylvania Elec. Prods., Inc., 454 F.2d 81, 84 (3d
Cir. 1972)); Tucker v. United States, 498 Fed. App’x 303, 307-308
(4th Cir. 2012) (affirmed district court prohibiting evidence at trial
because plaintiff-appellant did not include the matters in the joint
pretrial order); Scot Lad Foods v. Ayar, No. 96-1036, 1997 U.S.
App. LEXIS 8560, at *7-8 (6th Cir. 1997) (affirmed district court’s
limiting issues based on Rule 16 mandate that pretrial order ‘shall
control the subsequent course of the action); Gorlikowski v.
Tolbert, 52 F.3d 1439, 1443-44 (7th Cir. 1995) (a pretrial order
under Rule 16 is treated as superseding the pleadings and
establishes the issues to be considered at trial); In re Control Data
Corp. Sec. Litig., 933 F.2d 616, 621 (8th Cir. 1991) (Rule 16 pretrial orders control the subsequent course of the action and a party
may not offer evidence or advance theories which violate the terms
of a pre-trial order) (quoting Gilsmann v. AT&T Techs., 827 F.2d
262, 267 (8th Cir. 1987)); Randolph County v. Alabama Power Co.,
784 F.2d 1067, 1072 (11th Cir. 1986) (judge properly excluded
matters not set forth in a joint pretrial order pursuant to Rule 16).

20
Nova Scotia v. United States, 487 U.S. 250, 255 (1988)
(Federal Rules of Civil Procedure are “as binding as
any federal statute”).
It is of great practical importance that the law be
settled. Having limited the issues by pretrial order,
both the parties and the court should be held to them.
The purpose of [pretrial] orders is to eliminate
the need to address matters that are not in
dispute, and thereby to save the valuable time of
judges and lawyers. . . . Orders that are designed
to limit the issues would serve no purpose if
counsel acted at their peril when they complied
with the orders’ limitations. . . . The question,
however, is whether it can be said that counsel
had adequate notice of the critical issue that the
judge was debating. Our answer to that question
must reflect the importance that we attach to
the concept of fair notice as the bedrock of any
constitutionally fair procedure.
Lankford v. Idaho, 500 U.S. 110, 120-21 (1991).
More important is the core principle of due process
behind this rule. In Lankford, the Court relied
extensively on Justice Frankfurter’s concurring opinion
in Joint Anti-Fascist Refugee Comm. (500 U.S. at 12122 quoting 341 U.S. at 163, 170-72):
Due process is not a mechanical instrument. . . .
It is a delicate process of adjustment inescapably
involving the exercise of judgment by those
whom the Constitution entrusted with the
unfolding of the process. . . .The heart of the
matter is that democracy implies respect for the

21
elementary rights of men, however suspect or
unworthy; a democratic government must
therefore practice fairness; and fairness can
rarely be obtained by secret, one-sided
determination of facts decisive of rights. . . . The
validity and moral authority of a conclusion
largely depend on the mode by which it was
reached. . . . No better instrument has been
devised for arriving at truth than to give a
person in jeopardy of serious loss notice of the
case against him and opportunity to meet it. Nor
has a better way been found for generating the
feeling, so important to a popular government,
that justice has been done.
The lower courts’ treatment of the non-asserted
claims presents a clear and precise example of the
problem this Court should resolve. Consistent with the
district court’s order limiting the number of claims,
petitioner subsequently asserted only five claims
against respondents. And the parties stipulated in the
joint pretrial order that these were the only five claims
being litigated. App. infra at 40-43. Nor did
respondents’ summary judgment motion contend either
that (1) any non-asserted claim was ineligible under
Section 101 or (2) that an asserted claim was
“representative” of any other claim in the ’077 patent.5
5

Nor did Ameranth ever agree that any of the asserted claims was
or could be “representative.” Indeed, Ameranth told the district
court that none of the five asserted claims was representative of the
non-asserted claims. On this record, the district court’s sua sponte
ruling the Claim 1 was representative of all 18 claims conflicts with
HP Inc., FKA Hewlett-Packard Co. v. Berkheimer, 881 F.3d 1360
(Fed. Cir. 2018), cert. denied (No. 18-415, Jan. 13, 2020).

22
Domino’s offered no evidence addressing the unique
elements or ordered combination of elements for any
non-asserted claim. With no evidence or argument
directed to any non-asserted claim, there was nothing
to which Ameranth could respond. It surely had no
obligation to defend the eligibility of claims that were
not being challenged; no requirement to submit
evidence where respondents offered none. Especially
where the court’s limiting directive, the pretrial orders,
and the summary judgment motion itself had confined
the proceedings to the five asserted claims—and the
district court never entered a Rule 56(f) notice
informing the parties that any other claim was under
consideration on summary judgment.
The district court’s sua sponte decision finding the
non-asserted claims ineligible under Section 101 is
multiply flawed. Given the consistent pretrial orders
and stipulations, neither party could present the nonasserted claims for decision. And Domino’s summary
judgment motion sought no relief – or even mentioned
– the non-asserted claims; Ameranth expressly stated
the non-asserted claims were not included in the
motion. No one disagreed. In ruling on the non-asserted
claims, the district court recited no evidence (since
there was none) that addressed the unique elements of
any non-asserted claim, alone or in combination. Nor
did the district court find that the evidence was “clear
and convincing” on this point to overcome the
presumption of validity. The ruling simply failed to
address these essential standards, and necessarily so
given the nonexistent record.

23
The situation got even worse in the court of appeals.
It was undisputed that the pretrial order limited
Ameranth to only five claims; that Domino’s summary
judgment motion sought no relief or ruling on the nonasserted claims; that Domino’s submitted no evidence
or argument on the non-asserted claims. These points
were never contested. Indeed, they were confirmed
during the Federal Circuit oral argument. Oral
Argument, Ameranth, Inc. v. Domino’s Pizza, LLC,
(Fed. Cir. No. 2019-1141), http://oralarguments.cafc.us
courts.gov/default.aspx?fl=2019-1141.mp3. In response
to the panel’s pointed questioning, counsel for both
sides stated clearly and repeatedly that Domino’s
summary judgment motion did not present the nonasserted claims for decision. The Federal Circuit’s
opinion recited that Ameranth had excluded the nonasserted claims “because it was compelled to limit the
claims by order of the district court.” App. infra at 8.
Despite all of that, the Federal Circuit affirmed the
ineligibility ruling. The stated predicate for that
conclusion was the view that Ninth Circuit law
conferred broad “sua sponte power” (even without
notice) to do so if the party had a “full and fair
opportunity to ventilate the issues.” App. infra at 11
(citing Arce v. Douglas, 793 F.3d 968, 976 (9th Cir.
2015) and United States v. Grayson, 879 F.2d 620, 625
(9th Cir. 1989)). The court of appeals then canvassed
the record for any indicia of “notice.” It found an early
pleading in the case—filed long before the case was
limited to five claims by the court’s pretrial order, long
before Ameranth selected the five claims it would
assert, long before Domino’s contested the validity of
only the five claims in invalidity contentions, long

24
before the second pretrial order recited the five claims
at issue, and long before respondents moved for
summary judgment on only the five asserted claims.
Based solely on that long-since superseded filing, the
Federal Circuit concluded that Ameranth somehow had
been given sufficient “notice” that the non-asserted
claims would be considered as part of the summary
judgment motion. In the court’s view, this sufficed to
advise Ameranth of the need to present evidence on the
validity of non-asserted claims and to provide “a full
and fair opportunity to ventilate the issues raised.”
App. infra at 11. It reached this conclusion despite the
fact that Domino’s summary judgment motion neither
met the burden any movant must satisfy nor did it
present any evidence or argument to which Ameranth
could respond. Nonetheless, on that basis it found “no
procedural error” by the district court. App. infra at 12.
This summary justification of its actions by the
court conflicts with its own and Ninth Circuit
precedent. Where no motion regarding a claim is before
it “a trial court may not invalidate a claim sua
sponte . . . without prior notice to the non-movant and
an opportunity for the non-movant to address such an
unanticipated action.” Osram Sylvania, Inc. v. Am.
Induction Techs., Inc., 701 F.3d 698, 707 (Fed. Cir.
2012) (citing Portland Retail Druggists Ass’n v. Kaiser
Found. Health Plan, 662 F.2d 641, 645 (9th Cir. 1981)).
See also Celotex Corp. v. Catrett, 477 U.S. 317, 326
(1986) (summary judgment can be granted sua sponte
“so long as the losing party was on notice that she had
to come forward with all of her evidence”); Buckingham
v. United States, 998 F.2d 735, 742 (9th Cir. 1993)
(before sua sponte summary judgment is proper, the

25
losing party “must be given reasonable notice that the
sufficiency of his or her claim will be in issue . . ..”).
In addition to overlooking the clear procedural
deficiencies, the Federal Circuit omitted the
substantive legal steps essential for a finding of
invalidity. In depriving Ameranth of its valuable
property rights in the non-asserted claims, the court
did not address the “presumption of validity” to which
the non-asserted claims are entitled. Nor did it address
the standard of clear and convincing evidence needed
to overcome that presumption. Nor did it examine or
address any evidence on whether the five claims at
issue were “representative” of the non-asserted claims.
How could it? There was no evidence. No
basis—procedurally or substantively—on which
summary judgment could be entered in Domino’s favor
on the non-asserted claims. Yet it was. And the Federal
Circuit—on de novo review of a silent record—affirmed.
2. Judicial invalidation of claims that have
not been presented by the parties for
consideration and resolution poses
pressing practical risks that warrant
this Court’s review.
This Court recently addressed the critical issue of
party presentment that the Federal Circuit
contravened. Sineneng-Smith, 206 L. Ed. 2d at 868-69,
reaffirmed the principle announced in Greenlaw v.
United States, 554 U.S. 237 (2008) that “[i]n both civil
and criminal cases, in the first instance and on
appeal, . . . we rely on the parties to frame the issues
for decision and assign to courts the role of arbiter.”

26
Justice Scalia addressed this very defect in his
concurring opinion in Castro v. United States, 540 U.S.
375, 386 (2003). Our system “is designed around the
premise that parties [represented by competent
counsel] know what is best for them, and are
responsible for advancing the facts and arguments
entitling them to relief.” (Scalia, J., concurring in part
and concurring in judgment).
In significant practical ways, the situation in this
case is worse than the error in Sineneng-Smith. The
Ninth Circuit at least gave the parties some notice that
it was considering an issue no party had presented; the
Ninth Circuit gave both parties an opportunity to
address that new issue before it was decided; and all
parties did so. Here, the district court sua sponte
invalidated a patent claim that the parties had clearly
not presented for decision. No evidence or legal support
was submitted supporting the court’s summary
judgment ruling. No notice or opportunity to be heard
was provided to the patent owner whose patent was
declared invalid. Unlike this Court, which discerned
and emphatically corrected the Ninth Circuit’s error,
the Federal Circuit in this case simply plowed ahead
and affirmed. Since the Federal Circuit did not have
the benefit of this Court’s more recent decision in
Sineneng-Smith, this case should, at a minimum, be
remanded for reconsideration by the court of appeals.
In any event, the Federal Circuit’s incorrectly
expansive assessment of the Ninth Circuit’s views on
sua sponte adjudication should be revisited in light of
this Court’s vacating the Ninth Circuit’s ruling in
Sineneng-Smith.

27
B. This Court should grant review to assure
that a frequently-employed judicial
streamlining device does not result in
summary judgment invalidating patent
claims absent clear and convincing
evidence presented by the moving party to
overcome the presumption of eligibility,
and absent a meaningful opportunity for
the patent owner to contest that evidence.
Given the practical significance of the issues in this
case, additional factors weigh heavily in favor of
certiorari, and full examination by this Court. The need
for review is particularly acute because patent
eligibility, and therefore validity, under 35 U.S.C. § 101
is the issue on which Ameranth was denied notice and
an opportunity to present its evidence. In applying this
Court’s precedents on Section 101, the Federal Circuit
and district courts around the nation have encountered
great difficulty and generated much confusion. The
state of disarray on the substantive standards of
Section 101 has been the subject of extensive
commentary, including Federal Circuit opinions
earnestly beseeching guidance. See Amdocs (Isr.) Ltd.
v. Openet Telecom, Inc., 841 F.3d 1288, 1306 (Fed. Cir.
2016) (holding that the specification must be
considered to analyze the claims in a Section 101
analysis); but see Intellectual Ventures I LLC v.
Symantec Corp., 838 F.3d 1307, 1322 (Fed. Cir. 2016).
See also Aatrix Software, Inc. v. Green Shades
Software, Inc., 890 F.3d 1354, 1360 (Fed. Cir. 2018);
Smart Sys. Innovations, LLC v. Chi. Transit Auth., 873
F.3d 1364, 1377 (Fed. Cir. 2017); Interval Licensing
LLC v. AOL, Inc., 896 F.3d 1335, 1348, 1354-55 (Fed.

28
Cir. 2018) (Plager J., concurring in part and dissenting
in part) (“The law renders it near impossible to know
with any certainty whether the invention is or is not
patent-ineligible.” . . . “There is little consensus among
trial judges (or appellate judges for that matter)
regarding whether a particular case will prove to have
a patent with claims directed to an abstract idea, and
if so whether there is an ‘inventive concept’ in the
patent to save it.”).
The upsurge of petitions in Section 101 cases
highlights the chaotic application of substantive
standards for patent eligibility. This is an area of law
that urgently needs to be revisited and settled. Recent
filings by the Solicitor General in Berkheimer, No. 18415 (cert. denied Jan. 13, 2020) confirm that decisions
on patent-eligibility under Section 101 have “generated
substantial uncertainty in the lower courts concerning
the scope of the exceptions [to the statute] and the
proper methodology for determining whether a
particular patent implicates them.” U.S. Amicus Br. at
12-13, Berkheimer, supra (No. 18-415). This
uncertainty is also reflected in considerable confusion
in the Federal Circuit. For example, the government’s
amicus brief in Hikma pointed to a recent action by the
Federal Circuit that “was accompanied by multiple
separate opinions articulating different understandings
of Mayo and seeking clarification from this Court.” U.S.
Amicus Br. at 22, Hikma Pharmaceuticals USA Inc. v.
Vanda Pharmaceuticals Inc., No. 18-817 (cert. denied
Jan. 13, 2020) (citing Athena Diagnostics, Inc. v. Mayo
Collaborative Servs., LLC, 927 F.3d 1333 (Fed. Cir.
2019)).

29
The disarray extends beyond the lack of substantive
uniformity. It also includes procedural peculiarities
since some lower courts seemingly have accepted the
premise that recent Section 101 precedent justifies
wholesale findings of ineligibility. This case is a stark
example. On de novo review of a nonexistent factual
record, the Federal Circuit affirmed summary
judgment in favor of a party that did not even mention
the non-asserted claims, did not submit any evidence
that could have (or did) overcome the presumption of
eligibility to which all issued patent claims are
individually entitled, much less by the “clear and
convincing” evidentiary standard required to overcome
that presumption.
Claims allowed by the USPTO are afforded a
presumption of validity as a matter of law, and the
“clear and convincing” evidentiary standard applies to
all challenges to a patent’s validity. See Commil USA,
LLC v. Cisco Sys., 191 L. Ed. 2d 883, 893-94 (2015). On
summary judgment the moving party bears the burden
of providing such “clear and convincing evidence” and
of showing that there are “no genuine issues of
material fact,” with all reasonable inferences in favor
of the non-moving party. Fed. R. Civ. P. 56(c); Pernell
v. Southall Realty, 416 U.S. 363 (1974); see Osram
Sylvania, Inc. v. Am. Induction Techs., Inc., 701 F.3d
698 (Fed. Cir. 2012) (“This court reviews the evidence
in the light most favorable to the non-moving party.”)
(quoting Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
255 (1986)). See also Reeves v. Sanderson Plumbing
Prods., 530 U.S. 133, 150 (2000); Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 585-86
& n. 10 (1986).

30
Unless claims of a patent are entirely duplicative,
the unique elements of each claim must be considered
individually (or with the claim’s other limitations in
ordered combination), since each patent claim is
afforded separate protection under the law. See Graver
Tank & Mfg. Co. v. Linde Air Prods. Co., 339 U.S. 605,
607 (1950) (a claim in a patent provides the metes and
bounds of the right which the patent confers on the
patentee to exclude others from making, using, or
selling the protected invention); Kara Tech. Inc. v.
Stamps.com Inc., 582 F.3d 1341 (Fed. Cir. 2009) (“It is
the claims that define the metes and bounds of the
patentee’s invention. The claims [] define the scope of
patent protection. The patentee is entitled to the full
scope of his claims[.]”); Corning Glass Works v.
Sumitomo Elec. U.S.A., Inc., 868 F.2d 1251, 1257 (Fed.
Cir. 1989) (“A claim in a patent provides the metes and
bounds of the right which the patent confers on the
patentee to exclude others from making, using or
selling the protected invention.”). These principles
constrain a court from summarily considering any one
of a patent’s claims as “representative” or “duplicative,”
to invalidate other claims without proof. This is error
even when the other claims are placed in issue. But the
error is magnified when, as here, the other claims are
not at issue, not the subject of any proof or evidence,
and there is no meaningful opportunity for the patent
owner to address their validity with material factual
evidence.
The burden of proof lies with the moving party
seeking invalidation. And the standard of proof
requires clear and convincing evidence to overcome the
presumption of patent validity. How then can a patent

31
claim with unique limitations and elements be found
invalid without any evidence addressing that claim?
How can a moving party prevail without submitting
any evidence addressing the claim? How can the patent
owner’s property be summarily taken without an
opportunity to rebut any purported evidence of
invalidity for each claim? The answer is that they
cannot. Yet the district court did just that here. And
the Federal Circuit affirmed.
These basic requirements cannot be eviscerated by
doing what the district court did here: basing its
decision invalidating the non-asserted claims on the
summary conclusion, without explanation, that
independent Claim 1 of the ’077 patent was
“representative” of all 18 claims of the ’077 patent.
Respondents’ motion did not contend that independent
Claim 1 was representative of others. Nor did
Ameranth ever agree that any of the asserted claims
could be “representative.” Indeed, Ameranth’s briefing
affirmatively confirmed its position that none of the
five asserted claims was representative of the nonasserted ’077 claims. C.A. App. 10258-10259. Domino’s
summary judgment motion and briefing offered nothing
to the contrary. C.A. App. 4905.
The district court’s predicate conclusion is therefore
contrary to the Federal Circuit’s decision in
Berkheimer, 881 F.3d at 1365-68. Berkheimer makes
clear that “[a] claim is not representative simply
because it is an independent claim.” “The question of
whether a claim element or combination of elements is
well-understood, routine or conventional to a skilled
artisan in the relevant field is a question of fact. Any

32
fact, such as this one, that is pertinent to the invalidity
conclusion must be proven by clear and convincing
evidence.” Id. (citing Microsoft v. i4i Ltd P’ship, 564
U.S. 91, 95 (2011)). Berkheimer held that the district
court erred in concluding there were no underlying
factual questions to the Section 101 inquiry, where the
moving party, HP, offered no evidence. Id. at 1368.
Here, in conflict with Berkheimer, the Federal Circuit
affirmed despite critical evidentiary issues being
overlooked and unaddressed by the district court. On
appeal, the Federal Circuit, again sua sponte, simply
concluded, without evidence by the movant or nonmovant, that all of the features and elements of the
non-asserted patent claims were “conventional.” The
pervasive randomness of conflicting decisions creates
a compelling need for this Court to at least prescribe
procedural regularity in patent eligibility cases. It
should do so before additional generations of
technology are stripped of the patent protection to
which they are entitled.
C. Because
commonly-used
litigation
shortcuts put at risk the protections
embodied in the Due Process Clause and
the Federal Rules of Civil Procedure, the
issue in this case has broad application in
patent disputes and many other litigation
contexts.
The procedural and evidentiary issue presented
here goes far beyond the context of applying Section
101 to summary judgment proceedings. It applies
equally to any patent case in which validity is
challenged. Under each relevant section of the patent

33
laws there is a presumption of validity, under each
there must be proof of invalidity by clear and
convincing evidence, and under each the patent owner
must be apprised of such evidence and have the a
meaningful opportunity to offer evidence of validity.
If the issue were confined to patent cases, there
would be ample reason for this Court to grant
certiorari. In fact, the ramifications are even broader.
This case illustrates the challenge confronting litigants
in complex cases, where courts understandably seek
efficiencies and shortcuts to create judicial economies
and speed up the overall process. But courts must
protect each litigant’s right to notice, to due process in
confronting issues and evidence against them, and to
present the issues for review and judicial resolution in
an orderly and fair manner. Speed and efficiency
cannot trample core rights. Nor can Rules 16 and 56.
Similar procedural shortcuts are employed in a wide
variety of cases. In “sample,” “test” or “issue selection”
proceedings, questions often arise on whether the
sample, test or selected issue is “representative” of
those reserved or excluded from an initial
determination. The principle that must be applied is
simple: unless the parties agree that the issue is
“representative,” then it must be established through
adversary proceedings, based on evidence assessed
under the appropriate standard of proof, with the
procedural safeguards that permit the parties to rebut
the adversary’s evidence.
Consider, for example, the selection of “lead” or
“sample” plaintiffs in multi-plaintiff litigation. If the
selected plaintiffs win, the court cannot simply enter

34
judgment in favor or all remaining plaintiffs without
giving defendant an opportunity to offer individual
defenses that were not part of the test cases; and if the
selected plaintiffs lose, the court cannot simply dismiss
all the remaining plaintiffs without hearing from the
others and without determining that the rationale for
decision in the lead case necessarily applies to all.
Mass tort cases or multidistrict court litigations
may result in selective issue resolution by the court or
the identification of “test cases” as a subset or sampling
of the larger litigation. But courts have repeatedly
recognized that the “test case” will not necessarily
resolve all others. The others will still have their day in
court and be able to raise and litigate issues not
covered or addressed in the test case:
A representation that a pending case should be
dispositive, however, does not deprive parties of
the right to argue that the ensuing decision
failed to settle all the issues to be resolved in
their case. To apply judicial estoppel in cases
such as these would raise the specter of
forfeiture of appellate rights whenever a party
requests a stay to allow a “representative” case
to go forward separately for the purpose of
revolving issues common to all of the related
cases.
Prati v. United States, 603 F.3d 1301, 1304-1305 (Fed.
Cir. 2010) (citing Whiting v. Krassner, 391 F.3d 540,
543-33 (3d Cir. 2004)). See Bendet v. Sandoz Pharms.
Corp., 308 F.3d 907, 910 (8th Cir. 2002) (party that
based its argument on the assertion that its evidence
was “essentially the same” as the evidence in another

35
case, was not judicially estopped from seeking to
distinguish the other case after an adverse decision in
that case).
Suppose, for example, that at the outset of a case a
defendant moves to dismiss on statute of limitations
grounds; and the court then permits discovery only on
that issue, holding the rest of the case in abeyance
until that threshold issue is resolved. Having thus
limited discovery, received evidence, and heard
argument on only that one issue and concluding that
the case was timely, the court’s ruling on the statute of
limitations could not forge ahead and decide the merits.
And suppose the court did so without notice to the
parties that anything other than the statute of
limitations was on the table for decision. In addition to
all the other problems, consider the impact on the
parties and courts sorting out the resulting confusion
on the collateral estoppel and res judicata status of
such judgments.
Another example: suppose a defendant’s answer to
a complaint asserts multiple affirmative defenses. The
case proceeds through discovery, summary judgment
motions, pretrial order, and trial without a specific
affirmative defense being mentioned again. The court
cannot enter judgment in the defendant’s favor on that
affirmative defense, concluding that one line in the
long-superseded initial pleading gave “notice” to the
plaintiff. Why? Because orders limiting discovery
control. Because the pretrial order controls. Because
the evidence and argument presented by the parties at
trial control.

36
Here, both the district court and the Federal
Circuit failed to adhere to these core precepts of fair
adjudication. They departed from the requirements of
Rules 16 and 56 in ways that conflict with decisions of
this Court and the majority of circuit courts. They
departed from the requirements of due process. They
used flawed procedures to reach incorrect results. And
because such risks are inherent in the frequently
employed case-management shortcuts used here, the
issues arising in this case are likely to recur. This
Court’s guidance is needed.
CONCLUSION
The petition for a writ of certiorari should be
granted. Alternatively, the Court should summarily
vacate and remand to the Federal Circuit for
consideration in light of United States v. SinenengSmith, 206 L. Ed. 2d 866 (2020).
Respectfully submitted.
ROBERT F. RUYAK
RUYAKCHERIAN, LLP
1901 L Street, N.W.
Suite 700
Washington, DC 20036
(202) 838-1560
robertr@ruyakcherian.com

JERROLD J. GANZFRIED
Counsel of Record
GANZFRIED LAW
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, DC 20015
(202) 486-2004
JJG@ganzfriedlaw.com

Counsel for Petitioner
June 2020

